<html>
<title> - WORKFORCE DEVELOPMENT: ADVANCING APPRENTICESHIPS FOR SMALL BUSINESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







  WORKFORCE DEVELOPMENT: ADVANCING APPRENTICESHIPS FOR SMALL BUSINESS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON CONTRACTING AND WORKFORCE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             MARCH 20, 2018

                               __________

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 

            Small Business Committee Document Number 115-063
              Available via the GPO Website: www.fdsys.gov

                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
28-915                    WASHINGTON : 2018                 






















                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Knight................................................     1
Hon. Stephanie Murphy............................................     2

                               WITNESSES

Ms. Tammy Simmons, Vice President, Human Resources and Marketing, 
  Machine Specialties, Inc., Whitsett, NC........................     4
Mr. Jeffrey Forrest, Vice President, Economic and Workforce 
  Development, College of the Canyons, Santa Clarita, CA.........     6
Ms. Jeannine Kunz, Vice President, Tooling U-SME, Cleveland, OH..     8
Mr. Jeff Mazur, Executive Director, LaunchCode, St. Louis, MO....    10

                                APPENDIX

Prepared Statements:
    Ms. Tammy Simmons, Vice President, Human Resources and 
      Marketing, Machine Specialties, Inc., Whitsett, NC.........    22
    Mr. Jeffrey Forrest, Vice President, Economic and Workforce 
      Development, College of the Canyons, Santa Clarita, CA.....    25
    Ms. Jeannine Kunz, Vice President, Tooling U-SME, Cleveland, 
      OH.........................................................    32
    Mr. Jeff Mazur, Executive Director, LaunchCode, St. Louis, MO    37
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    ABC - Associated Builders and Contractors, Inc...............    42
    Iowa Brewers Guild...........................................    43
    Statement from Congressman Lloyd Smucker.....................    46

 
  WORKFORCE DEVELOPMENT: ADVANCING APPRENTICESHIPS FOR SMALL BUSINESS

                              ----------                              


                        TUESDAY, MARCH 20, 2018

                  House of Representatives,
               Committee on Small Business,
         Subcommittee on Contracting and Workforce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2360, Rayburn House Office Building. Hon. Steve Knight 
[chairman of the Subcommittee] presiding.
    Present: Representatives Knight, Chabot, Evans, and Murphy.
    Chairman KNIGHT. Well, it does say this morning, but since 
we are not in California we will say good afternoon.
    Thank you for being here. Thank you for traveling. I know 
some traveled a long way. Jeffrey, you can feel sorry for me 
now for what I go through.
    The Small Business Committee has heard many accounts of the 
skills gap and its detrimental impact on the small businesses 
and the American economy. To help close the skills gap, America 
needs an arsenal of workforce development strategies that 
balance the immediate needs of employers, long-term goals of 
employees, and the rapid evolution of technology.
    Today, we will focus on apprenticeships, a centuries old 
workforce development practice that combines on-the-job 
learning with related technical instruction. Registered 
Apprenticeship (RA) is one of 40 federal workforce development 
programs spread across 14 agencies. RA has been effective 
because it enables workers to earn while they learn. It is 
flexible to meet industry needs and generates evidence-based 
results.
    Last June, President Trump issued Executive Order 13801, 
which established the Taskforce on Apprenticeship Expansion to 
identify strategies and proposals to promote apprenticeships, 
especially in high-growth sectors where apprenticeship programs 
are underutilized.
    I am looking forward to hearing more about these programs 
from our panelists. Specifically, how can RA programs be 
customized to combat the skills gap at the community level 
while still meeting strict national standards. What roles do 
small businesses play in the apprentice system? What kind of 
incentives can we offer to encourage greater participation in 
the RA system? I think we can also add there how do we get more 
folks to know what there is out there? I think what we talk 
about here sometimes is getting the message out, whatever we 
are talking about, for people to understand that there are 
maybe a program out there or there are things that can help you 
do what you want to do.
    So I really appreciate everyone coming today, and I look 
forward to hearing what you have to say.
    And now I yield to the Ranking Member Murphy for her 
opening comments.
    Ms. MURPHY. Thank you, Mr. Chairman.
    While our economy has improved in the past decade, small 
business owners continue to face challenges finding skilled, 
qualified workers. By 2020, it is estimated that our economy 
will have approximately 55 million job vacancies. About 40 
percent of these jobs are expected to be new openings, while 
the remaining 60 percent will be jobs left vacant by workers 
from the baby boomer generation.
    This is a staggering projection. When viewed in combination 
with the current workforce skills gap, it underscores the 
importance of enacting policies to ensure that our country 
produces skilled workers capable of performing the jobs of both 
the present and the future.
    One way we can do this is to expand the use and improve the 
quality of apprenticeship programs across the country. The 
apprenticeship model allows individuals to work for employers, 
earn a salary, and get valuable on-the-job training while also 
receiving classroom instruction specific to that occupation.
    Apprenticeships provide individuals with an opportunity to 
work towards a credential or certification in their chosen 
profession. In return for their investment, employers benefit 
from having employees who can hit the ground running and have 
the specialized skills necessary to do the job well.
    Since 2011, the number of apprenticeship programs in the 
United States has increased by nearly 30 percent. Nevertheless, 
apprenticeships are still underutilized and their value is 
often insufficiently understood, especially by small businesses 
that may lack the resources or knowledge to take advantage of 
the opportunities that apprenticeships offer.
    The Federal Government is partly to blame, having rolled 
back investments in, and oversight of, private sector 
apprenticeship programs and other workforce development 
initiatives.
    Naturally, as technology continues to advance, our 
workforce needs will continue to evolve. In order to ensure 
that our economy can remain globally competitive, it is 
critical that we create incentives for apprenticeship programs 
that will lead to the creation of good jobs, better wages and 
salaries, and higher economic productivity. At the same time, 
we must remain standards of quality assurance so that 
apprenticeship opportunities are available to all workers, 
including veterans, women, and minorities.
    Today's hearing offers us the opportunity to better 
understand these challenges and explore solutions to help our 
nation's job creators prosper. I look forward to hearing from 
our witnesses on how apprenticeships can help revitalize our 
workforce and ensure America's small businesses are empowered 
to move our economy forward.
    I thank the witnesses for being here, and I yield back the 
balance of my time.
    Chairman KNIGHT. Okay. Thank you very much.
    I wrote down baby boomers because I think that is one of 
the terms that we are going to use quite a bit. And I think 
Congresswoman Murphy hit it on the head that we are always 
looking at the baby boomers as the ones who are retiring out, 
but I am the next generation. I am 2 years outside of the baby 
boomers, me, and I have friends that are now looking to retire. 
So now the next generation, I do not even know what you call 
us, are starting to think about retirement or thinking to maybe 
move out of what their career is and maybe do something else. 
So it is going to be a big, big problem, not just for baby 
boomers but, you know, it is starting to really affect.
    So we have a couple rules. You get 5 minutes to speak. And 
first, if Committee members have an opening statement prepared, 
which I do not see any, I ask that they be submitted for the 
record.
    The lights are going to go on. You are going to get green 
until you get to 4 minutes. And then you are going to go to 
yellow. And then you are going to go to red. So at the end of 5 
minutes, if you see that red, just start to work your way out 
of the conversation.
    Okay. Let's see. We have some long introductions.
    We should probably get less qualified people coming in here 
so we can get smaller bios.
    Okay. Now, I would like to formally introduce our 
witnesses.
    Our first witness is Ms. Tammy Simmons, Vice President of 
Human Resources and Marketing at Machine Specialties, Inc., in 
Whitsett, North Carolina. Her business runs a Registered 
Apprenticeship program for skilled manufacturing positions.
    Thank you for joining us today.
    Let's see. Our second witness is Mr. Jeffrey Forrest, Vice 
President of Economic and Workforce Development at the College 
of the Canyons in Santa Clarita, California, right in the heart 
of my district. He is the cofounder of the Strong Workforce 
Apprenticeship Group (SWAG), which is also a great acronym.
    Thank you, Jeffrey, for being here today.
    Our third witness is Jeannine Kunz, the Vice President and 
Director of Training and Development of Tooling USME in 
Cleveland. U-SME, is that right? Or U-SME? Okay. Out of 
Dearborn, Michigan. Very close. Tooling U-SME delivers a 
customizable competitive-based learning and development 
solutions to the manufacturing community. Ms. Kunz is an expert 
in manufacturing and workforce development and serves on the 
executive committee for America Makes.
    Thank you for being here.
    And now I am going to yield to Ms. Murphy to introduce our 
last witness.
    Ms. MURPHY. Thank you, Mr. Chairman.
    It is my pleasure to introduce Mr. Jeffrey Mazur. Mr. Mazur 
serves as the Executive Director of LaunchCode, a nonprofit 
organization that is focused on building a skilled workforce by 
creating pathways for individuals seeking careers in 
technology. Mr. Mazur previously served as the Executive 
Director of the Missouri-Kansas Council of the American 
Federation of State, County, and Municipal Employees, and prior 
to that he was a Senior Advisor to Missouri Governor Jay Nixon. 
He holds an undergraduate degree from the University of 
Missouri, and a law degree from Georgetown University, which I 
might also add has a great graduate program in Foreign Service.
    Welcome, Mr. Mazur. Thanks for being here today.
    Chairman KNIGHT. Okay. And we will start with Ms. Simmons. 
You have 5 minutes, and we look forward to your testimony.

 STATEMENTS OF TAMMY SIMMONS, VICE PRESIDENT, HUMAN RESOURCES 
AND MARKETING, MACHINE SPECIALTIES, INC.; JEFFREY FORREST, VICE 
 PRESIDENT, ECONOMIC AND WORKFORCE DEVELOPMENT COLLEGE OF THE 
  CANYONS; JEANNINE KUNZ; VICE PRESIDENT; TOOLING U-SME; JEFF 
             MAZUR, EXECUTIVE DIRECTOR, LAUNCHCODE

                   STATEMENT OF TAMMY SIMMONS

    Ms. SIMMONS. Thank you, and good afternoon. Thanks for 
having us.
    So I am the small business that you talked about that have 
been struggling. Machine Specialties is going to celebrate 50 
years next year, and we have high school positions in welding, 
C&C setup machinists. We produce parts that go on the F-35, F-
15, the B-1B bomber, a lot of helicopter parts. We also serve 
the medical industry with hip and knee replacement parts, 
surgical instrumentations, as well as parts on the satellites. 
So our growth is limited to the amount of skilled employees 
that we can have to make those very precise parts that are 
going to be shot up into space or that are going to fly our 
aircraft.
    For years, we have tried to think outside the box and go 
and recruit more employees. The positions that are the most 
skilled, and our positions are, like you said, in the baby 
boomer generation. So what are we going to do now to not only 
replace the ones that we have that want to retire but also to 
grow our business and take on new customers?
    We first heard about apprenticeships through another 
business in Charlotte, North Carolina, that had been doing it 
for 22 years. And they offered a youth apprenticeship model. 
And when I attended the meeting I was a little bit skeptical. 
We had never recruited youth into our business. We have about 
170 employees, and we looked for the most skilled and the most 
talented people that we could find that had years of experience 
to make these parts. But because they had been so successful 
and they had a really interesting model that by recruiting 
young talent before they decided to go off maybe and not sure 
what they did. You know, we all hear the statistics about how 
many students go to college but then do not finish and try to 
find their way. They went into the high schools and found 
students that were very interested in building and creating and 
making things with their hands that were very successful in the 
CTE types of programs, and were smart, were good in math. They 
had some criteria that kind of spoke to us. They looked for an 
unweighted GPA of 2.5 because the students in the 
apprenticeship programs also earn a 2-year degree. They look 
for five absences or less because as employers we have to have 
employees who attend work every day. So we correlated 
attendance in high school with attendance in the workforce.
    We looked at, like I said, the math grades, because a lot 
of the positions that we hold require a lot of thinking, logic, 
and reasoning. So that kind of led to a good, successful 
candidate. And that they were already taking electives in their 
school. So that as a business appealed to me that you had some 
criteria that you set up.
    Also, they talked about being in a consortium of other 
small businesses and medium size businesses or large 
businesses, but you got some buying power when you did this. So 
when we went to the school system, it was not just one company 
like myself knocking on the door at the local high school near 
me saying can I talk to your drafting students who might be 
interested in working for me? When we went as a consortium, our 
consortium no has 26 companies. We had the superintendent of 
our school board sitting in on meetings with us because she is 
very interested in growing and promoting this program. So we 
had buying power with the school system. So we got a chance to 
talk to the educators and to the kids in the high school that 
we wanted to recruit.
    We also got a little bit of buying power with the community 
college system. One of the key attributes to the type of 
program that we have is that our students go to community 
college to earn their 2-year degree 1 to 2 days a week, and 
then they are in our facilities the remaining part of the week. 
So as a business owner, it is very hard to think that you are 
going to have people coming in all day long. By blocking the 
classes for us so that maybe they only go to class on Mondays 
and having them in our facilities from Tuesday to Friday to 
earn those on-the-job training hours really spoke to me as an 
employer. I thought that this is something that we could 
implement and utilize.
    So when we first started, we had six advanced manufacturers 
who wanted to participate in the program in our first year. We 
recruited 14 years. It was such a success that our president, 
our vice president of operations came into me one Saturday 
morning and said this apprenticeship program is a home run. The 
kids are learning so fast, much faster, more productive than we 
ever thought they would be at this early stage, and they are 
willing to learn. You know, we always talk about this younger 
generation, the work ethic, and what that is going to be like, 
but studies show, and New America has done a study that shows 
that apprenticeships have much more loyalty with their employer 
when they start as a young apprentice. The turnover rate that 
they quoted is like 90 percent after 3 years of finishing an 
apprenticeship and that is huge. That is much stronger than 
anything I can do when I hire outside the door.
    Our company has continued to stay in this. We now have 15 
and we are looking to recruit 25 more apprentices this year. 
Also, our consortium has grown. We went from six companies the 
first year to 11 the next year to 26, and over half of those 
are small businesses. We have also reached across the state, 
the county lines, and we have helped other programs just like 
us launch, get in touch with their school systems, with their 
community college as the formal education provider, and work 
it. So it is employer led. The employers are the customer. They 
are the ones that are going to be hiring these students and 
training them on the job. So once you have a partnership like 
that it kind of spreads the workload around. So that is how 
that one employer can go out and be part of a consortium, get 
really good talent into their workforce, have them educated, 
and kind of share that work burden.
    And my time is almost running out.
    I have so many stories that I could tell you about not only 
what it has done for our business. That was the first stage. 
When we got in the first year, like this is great for us. So 
then I wanted my other business employers--I am on a 
manufacturing committee--to know about this. So that was 
exciting. But then I also became so engaged with the students. 
I had students the first day of college say I never thought I 
would have the opportunity to go to school. I never thought 
that I would have a career. Once they received their letter 
they said I finally feel like I have a direction in my life.
    So then that got me more impassioned trying to help more 
students get opportunities and in different areas. So our 
consortium is now not only advanced manufacturers, but it is 
field service technicians, and those are like electricians and 
HVAC.
    I am finished.
    Chairman KNIGHT. Okay. We will go on to Mr. Forrest from 
the great community college of College of the Canyons.

                  STATEMENT OF JEFFREY FORREST

    Mr. FORREST. Thank you, and good afternoon, Chairman 
Knight, Ranking Member Murphy, and to the distinguished guests 
who are here with us today. Thank you for this opportunity to 
provide testimony today on how the Strong Workforce Apprentice 
Group supports small business along with recommendations on how 
to fund and expand apprenticeship to sustain our growing 
economy.
    College of the Canyons is under the leadership of 
Chancellor Dr. Dianne G. Van Hook, and we are committed to 
working with employers, students, community stakeholders to 
develop innovative solutions that promote equity, skills 
attainment, and economic growth in the region.
    Recently, the Bureau of Labor Statistics reported that in 
the month of February, nonforeign payroll increased by 313,000, 
while the unemployment rate remained at 4.1 percent. And while 
these numbers are encouraging, behind these numbers there looms 
a crisis, and it is the shortage of skilled labor, and it poses 
one of the greatest threats to our Nation's ability to sustain 
its economic growth.
    And no entity is more impacted by this crisis than our 
nation's small businesses. They comprise more than 99.7 percent 
of all businesses in 2016, and they are the backbone of the 
United States economy. Because of their limited resources, our 
small businesses are not able to compete with the large 
companies for talent, and they lack the operational capacity to 
attract, train, and develop their own workforce.
    So what small business needs today is a model of 
apprenticeship that allows them to: (1) upskill their 
workforce, and (2) be able to implement easily and efficiently.
    In response to that need, the Strong Workforce 
Apprenticeship Group was formed, referred to as SWAG. The 
Strong Workforce Apprenticeship Group was founded by myself and 
Tracy DiFilippis, Apprenticeship Coordinator with Goodwill 
Southern California. The name SWAG is taken from strong 
workforce and doing what matters for jobs in the economy, a 
California community college initiative that was developed by 
Van Ton- Quinlivan, Executive Vice Chancellor, Workforce 
Digital Futures for the California Community College 
Chancellor's Office.
    SWAG helps our small businesses by doing the following:
    First, we partner with them to recruit, attract, and place 
individuals into apprenticeships. We also provide instruction 
to incumbent workers to create a pipeline of talent to fill 
critical positions.
    Second, we handle the administrative heavy lifting 
associated with managing an apprenticeship, making it a more 
attractive option for small companies. Bill Boden, General 
Manager of Repairtech International says this about SWAG: ``We 
could not imagine doing this alone. The high level coordination 
frees our organization to move in new levels of productivity 
and efficiency.''
    Third, SWAG provides curriculum that is relative and up to 
date through our partnership with Tooling U, a leader in online 
education in the field of advanced manufacturing. In addition, 
we are working with the National Institute for Metalworking 
Skills, known as NIMS, to integrate their certifications into 
our training model. SWAG is currently funded through the 
California Apprenticeship Initiative. The goal of this program 
is to incentivize partnerships between community college 
employers to develop apprenticeships.
    I am proud to say that in the 7 months that SWAG has been 
launched, we have acquired more than 50 apprentices and over 75 
percent of them come from underserved communities, veterans, 
minorities, women, and other underserved population segments.
    And while we are the fastest growing model of 
apprenticeship in California currently, what we know is this: 
without access to a consistent funding stream, SWAG, like the 
many other initiatives that came before it, will end up in the 
workforce development graveyard.
    Which leads us to offer the following suggestions on how we 
can fund and grow apprenticeships to continue to support our 
small businesses.
    First, we must fix the funding. Tax credits and similar 
incentives can go a long way in helping small businesses 
embrace apprenticeship as part of their employment development 
strategy.
    Second, simplify the Workforce Innovation and Opportunity 
Act. Ladies and gentlemen of the Subcommittee on Contracting 
and Workforce, meet your 399 pages of single-spaced 10-point 
font legislation. Hidden somewhere in these pages is funding 
for Registered Apprenticeship for on-the-job training. 
Navigating this legislation is tedious at best. We have got to 
find a way to streamline it. We need to also look at 
incorporating some provisions of the Prosper Act, such as the 
25 percent cap on private sector employment from Federal Work 
Study Program. Eliminating that along with the provision to 
access apprenticeship. We need to strengthen the Department of 
Labor by personnel funding, upgrades to technology, and helping 
it in updating its existing work processes so they can continue 
to provide the critical services needed by the workforce 
development community.
    We must also look at competency-based education and 
celebrate and support those educational institutions, like 
College of the Canyons, that are working to integrate it into 
their educational framework. And then in working with small 
businesses, dozens of them, what we have learned is this: 
effective apprenticeship demands strong partnership. Our 
workforce development system must come together if we are to 
remain a competitive force in the global economy.
    In conclusion, we wish to thank the members of the 
Subcommittee on Contracting and Workforce for allowing us to 
share how SWAG supports small business and your leadership and 
your commitment in creating prosperity for all Americans, and 
we look forward to addressing any questions you may have.
    Thank you.
    Chairman KNIGHT. Thank you.
    And all the way from Dearborn, Michigan, Ms. Kunz.

                   STATEMENT OF JEANNINE KUNZ

    Ms. KUNZ. Thank you. Thank you. Thank you, Chairman Knight, 
and Ranking Member Murphy, and the guests, for the opportunity 
to provide some insight around this important topic of 
apprenticeships and how small businesses are using 
apprenticeships to solve the skills gap.
    For 85 years, SME has been dedicated to the health and 
competitiveness of the manufacturing industry. We do that 
through developing the workforce and promoting advanced 
technology. And as you have heard from the other witnesses 
here, it is a very significant threat that the skills gap has 
on the manufacturing industry right now and we have been doing 
a study for the last 5 years and it has not changed. It is 
getting worse. And when we ask manufacturers the question of 
how difficult it is to find skilled labor, we find that 88 
percent are saying I am having a difficulty finding skilled 
labor to do the work I have in my organization now let alone 
into the future. When we ask a little more into that research, 
what is that doing to your business, they are telling us it is 
affecting their productivity, their innovation, quality, 
safety, profitability. Right? These are all very key things to 
running businesses here in manufacturing.
    And so when we look at that and we look at the fact that 
Jeffrey brought up about that 90-some percent of all 
manufacturing businesses are small, we know that small 
businesses need to thrive in order for manufacturing to be 
successful as well.
    And small businesses, unlike large businesses, have a 
little bit added challenge. Right? We all know the CEO is 
wearing the HR hat, is wearing the custodial hat and the plant 
manager hat. Small businesses cannot always provide the same 
kind of benefits and packages that large companies can. So 
these added challenges really put pressure on the small 
businesses I think as well articulated by Tammy.
    So when we look at how do we help those small businesses, 
we certainly look at something like apprenticeship. And it is 
not a ``one size fits all.'' We certainly know that. There are 
lots of things, and I think Chairman Knight, you talked about 
the arsenal of tools that are needed to address the skills gap. 
But there is no doubt that apprenticeships is a key part, and 
Jeffrey and Tammy did an excellent job I think articulating 
that. And what we are seeing is the number of retirees and the 
baby boomers that you referred to that are exiting the 
manufacturing industry. Those skilled laborers, those 
journeymen, those apprentices that have all that knowledge, 
unfortunately manufacturing historically has not done a good 
job building up that pipeline. It has not done a good job 
building structured, sustainable programs. It is a little bit 
of follow me and watch what I am doing on the job. Well, that 
does not work. We really need a very strong, structured, 
sustainable program for onboarding and on-the-job training of 
which apprenticeship programs very much have.
    SME supports the nationwide Department of Labor 
apprenticeship programs with a competency-based approach. 
Right? That is the change from the past where it was much more 
time based, it was more about how much time you put into a 
program. Now we are able to look at programs much differently, 
look at the knowledge and skills that are required to perform 
in the jobs today, and look towards how people can be assessed 
towards those knowledge and skills so we are more oriented 
towards a competency-based program versus time, which also 
reduces the amount of time it takes to get people in the jobs, 
doing effective things that move the organizations forward.
    As Jeffrey articulated, we are a good strong partner here 
with SWAG, and I think you did an excellent job talking about 
your program so it is not one I will mention here. But I think, 
and it was interesting to hear Tammy talk about the consortium. 
A couple things that we are noticing because we get the 
opportunity to work across the country, so we get to work with 
the small, the mid, and the large companies, but we are seeing 
that these organizations and these consortiums are coming 
together to really help represent multiple small organizations.
    One I would like to mention through our partnership is with 
a group called MACNY. And it stands for the Manufacturers 
Association of Central New York. And they basically represent 
300 manufacturers. A lot of small to mid-size manufacturers 
across central and upstate New York. And when they were talking 
to those members, like we would expect, those members were 
struggling with, you know, hiring and finding people, finding 
the right skills. So MACNY went about how do they go and create 
these partnerships, these collaborations with the schools, 
organizations, organizations like SME, where we could look at 
the knowledge and skills and then start to drive towards what 
is needed 80 percent of the way and then help the companies be 
able to have the flexibility to drive it to their own 
particular needs.
    One interesting thing that MACNY also did was look at a 
pre-apprenticeship. So it was working with the high schools, 
dislocated workers, veterans. So again, now that we are looking 
at apprenticeships inside these small companies, how do you 
start to look at again the pipeline of even getting those kinds 
of people into the system? So a pre-apprenticeship program in 
the high school. We have some good examples where some 
companies are looking at how to take those pre-apprenticeships 
into an apprenticeship program and then into a career pathway 
into a college degree program. Many great things are happening 
in those kinds of examples.
    In summary, the health of small businesses is vital to 
manufacturing success. The largest OEMs in the world are 
relying on these small businesses, and all too often or not, I 
cannot even tell you the number of times we hear businesses say 
that they are having to turn down orders, delay their expansion 
of their business because they cannot find the right people, 
just things that we do not want to see continue.
    So apprenticeships is a proven and needed piece of a 
company's workforce development strategies. It helps the 
businesses build a pipeline, grow internal talent, reduce 
recruiting costs, and improve productivity.
    We thank the Subcommittee on Contracting and Workforce for 
taking the time to address this very important and clear issue 
that we have in front of us as a Nation. Thank you.
    Chairman KNIGHT. Thank you.
    Mr. Mazur, you are up.

                    STATEMENT OF JEFF MAZUR

    Mr. MAZUR. Thank you, Mr. Chairman, Ranking Member Murphy, 
for the opportunity to appear today.
    Again, my name is Jeff Mazur, and I am the executive 
director of LaunchCode. LaunchCode is a national nonprofit 
founded a little over 4 years ago, designed to help fill the 
tech talent gap. There are about 600,000 unfilled tech jobs in 
the U.S. today according to BLS. The number is going to be 
about a million by 2020. So there is a lot of gap to fill in 
the tech industry.
    We try and do this in a few different ways. One way that I 
will not spend a lot of time talking about is by providing 
free, accessible job-focused training in coding. We teach 
people to code to a level where they are ready for an entry 
level role as a developer.
    The other pieces that we do that I will spend a little more 
time talking about today is job placement, in particular, the 
apprenticeship in the software development space. Over the 
course of our 4 years of existence, we have helped more than 
1,000 people start their careers as junior software developers, 
computer programmers, and we think that apprenticeship, as with 
my colleagues at the table, is a really powerful tool in doing 
that and helping those people start those careers.
    And so part of what I wanted to share today was a little 
bit about what our learnings have been as we have tried to 
build a program that really utilizes apprenticeship in a space 
and in industry and in job types that typically it has not been 
used a lot in.
    And so four sort of principles or items that I wanted to 
point to that we have kind of distilled through our learnings 
in working with last year more than 124 employers to place 
entry level junior developers. One of those things is 
flexibility. It is easy to imagine a job posting and a training 
program for a welder. We sort of know and understand what a 
welder's job is and that is kind of probably standard across 
many different employers in terms of what the core skillset is. 
And when we think about a job posting for a software developer, 
it could be that there are dozens or hundreds even of different 
languages or frameworks that may be at play there. And so 
having an apprenticeship, in our case an apprenticeship with 
standards of apprenticeship--we serve as an intermediary--we 
have those standards that are flexible and it can accommodate 
the many different needs of different sorts of employers is 
really critical to success and adoption by those employers.
    The other piece that we found is essential is integration 
of apprenticeship into existing processes of hiring and doing 
business that our employers have. One of the things that is a 
sure fire way we found for an employer not to want to work with 
us to use apprenticeship to bring developers into their system 
is if they have to build substantial new infrastructure in 
order to accommodate those people. And so having, again, an 
intermediary-based program where that infrastructure can live 
outside the walls of their company, outside the walls of their 
institution and still build people with the sorts of skills 
they need is really critical for them to adopt and use 
apprenticeship in bringing new software developers onto their 
teams.
    The third piece, I want to echo what many others have said, 
is really around the notion of competency-based programs. And I 
want to particularly identify two key threads here in the way 
we braid competency-based notions into our program. The first 
being that people should get ``credit'' for competencies that 
they are bringing to the table at the front end. If people have 
already developed and we have a common way of measuring and 
understanding what someone's skill is as they come to the 
table, then they ought to get credit and not have to compete as 
much in terms of the related technical instruction. And so, 
again, that is a mechanism both for having these things be 
based really on the skills that are necessary and also 
abbreviating the time that one may spend in an apprenticeship 
before they are ready for work.
    The second piece of the competency-based component that we 
focus on, again, is that rather than having a time-based 
approach to a time and program as a function of when someone 
has completed the program and is ready for journeyman status, 
is instead focusing on competencies. And in our case, we try 
and build a program that is very focused on making sure that 
employers themselves, hosting employers are saying that these 
are the competencies that we need this person to have achieved 
in order for them to have successfully completed this program, 
and then with assistance, allowing them to judge when someone 
has completed the program rather than have it being a rote 
function of time and program.
    And so we found that to be a key thing not just for 
adoption, not just for building our program but for employers 
to really feel like this is a process that works for them.
    And the final piece that is sort of tied with the 
competency-based piece is that these things should be 
accelerated, particularly when technology changes so quickly, 
the skills that you are learning today may be obsolete 6 to 9 
months down the road. And so if it is a 2-year program, you may 
have people spending lots of time learning something that they 
are never going to actually get to deploy in the field. And so 
designing a program that in our case may have 20 weeks of 
classroom instruction and 90 to 120 days in an on-the-job 
focused programming situation is a way that allows us to get 
those people quickly the skills they need and get them quickly 
into the workforce because employers in tech need those jobs 
now if they are going to fill that gap.
    I am again grateful for the opportunity to appear today and 
I am delighted to answer any questions.
    Chairman KNIGHT. Well, thank you all.
    I know Stephanie and I write a lot of notes up here. Hers 
are probably way better than mine. But I typically write notes 
on what you are saying and what I think you are saying. So when 
I hear ``integration,'' I hear you have got to give me a puzzle 
piece that fits. So you have got to give me somebody that can 
come in and can work and I do not have to do something special 
there. They are just going to come in and work. When I hear 
competency based, what can you do? Are you ready to do the job? 
If you are, then I want you. You do not have to have 4 years of 
schooling if you learned it in 1 year and I can have you in my 
business and you can be working. And fast is always what small 
business talks about is how fast can we do something? How fast 
can we turn the wrench or whatever we need to do because that 
is how I get paid?
    So I am going to go into just a couple questions. You know, 
the first one I think I alluded, how do we get the info out? 
How do we get it to small businesses across the country? I am a 
huge proponent of our community colleges and of trade schools 
and tech schools as kind of a conduit to do something that 
maybe you can do fast. I know College of the Canyons or many of 
the other community colleges across the country, they can move 
and they can be agile. And so if you need something to work on 
an F-35 as a supplier, you might go to them and say these are 
the people, these are the skills that we need. They need to 
have basic schematic skills. They need to have basic math 
skills. Then we can move them in to where we need them but they 
need to have those before I can even look at them.
    We have a program in Palmdale that is called the AFAB right 
now, and Northrup Grumman came to us and so we went to the 
community college out there and they built an 8-week program. 
And at the end of 8 weeks, those kids have a 96 percent chance 
of getting hired. I do not know what the other 4 percent are, 
but that is what they told me, 96 percent. And they are hired 
at a good rate. They are hired into a great company and they 
are on their way to a career.
    That was just working with a community college and saying 
can you do this? They said, yeah, we can do this, and they did 
it.
    So apprenticeships, that is what I see, and that is what I 
think we are going to have to have over the next 30-40 years. 
There are going to be these holes that if we do not fill them 
quickly then we are going to lose those jobs or they are going 
to be outsourced or something that is not going to be what we 
want.
    So my first question is, about 74 percent of kids that 
graduate high schools today are not eligible to go into the 
military. So the military always comes to us and says only 
about one in four kids can go into the military. For various 
reasons. There might be a medical reason, there might be 
something else, but several of the reasons I push back on and 
say, you know, you should probably relook at these. But a lot 
of those kids you are looking at, too. If those 24 percent are 
now looking at colleges or looking at something else, you are 
trying to grab them. So I think that is kind of my first 
question, is how do we reach out to the high school kids?
    And then my second question is how do we reach out to the 
junior high kids and say what do we need to get them into kind 
of a skilled learning so that they can do the jobs maybe in the 
community. Maybe it is for automotive manufacturing. Maybe it 
is for something else. And how do we get them involved at maybe 
a seventh or eighth grade? And I know we have got VEX and we 
have got robotics and we have got all kinds of programs to kind 
of push STEM, but we really have to make sure that kids know 
that, you know, here are the jobs in the community. How do we 
get you looking at that? It does not say we do not want you to 
go to college or it does not say we do not want you to do other 
things. It just says these are skills based. These is a skill 
that you can learn and you can look to be hired at some of our 
jobs here.
    And we had the Chairman of the Full Committee on Small 
Business, Mr. Chabot. Mr. Chabot, are you just going to sit 
there or do you want to chat?
    Mr. CHABOT. I will wait until you are done with your 
questions and the other side.
    Chairman KNIGHT. Okay.
    Mr. CHABOT. Yeah. Thank you.
    Chairman KNIGHT. Okay. So, anyone, we can go right down the 
line.
    Ms. SIMMONS. So we also think that messaging is a huge 
problem with I guess the awareness of apprenticeships. We 
thought that just going into the schools and letting the 
students hear some of the opportunities would be our biggest 
avenue, but I feel like we have to reeducate the educators of 
what a great opportunity these apprenticeships are. And the 
careers that we are all talking about here, they make well over 
$55,000, $65,000, $70,000. Some of them will punch a clock and 
make over six figures. The jobs are in high demand and they are 
going to be increasing in demand. So the educators have to be 
aware that these are really good opportunities for all 
students, not just the ones that they think cannot go to 
college.
    Also, we have to send a message to the parents that these 
opportunities are out there. I hear parents and they are like, 
I never knew this was there. Do you have apprenticeships for 
adults? How can we get in this? So part of the thing I think is 
a huge marketing campaign on just awareness of what 
apprenticeships can do and the career values that they have.
    And also, apprenticeships are a great stepping stone for a 
4-year degree. Our company is looking at in the future only 
hiring engineers that first go through our apprenticeship 
program. We think they are going to be much stronger and we are 
going to help educate them and get the 4-year degree after we 
pay for their 4-year degree.
    And I forgot to mention that our apprenticeship programs 
are valued at $125,000. The students receive benefits and 
401(k), and they are actually paid for the class time that they 
are sitting in college earning that degree.
    When you talked about going into the middle schools, yes, I 
realized into our second year that by the time we see juniors 
and seniors, it is almost a little bit too late. Most of the 
time they do not even know about the career opportunities that 
are available or what these jobs look like, what area they work 
in. So we, in our school system, are trying to get middle 
schoolers out into the different industries that have careers 
and have jobs available to them when they graduate. But now 
that I am a third year into it, I am also thinking like the 
German-style model, we also maybe even need to be planting 
those seeds in first and second grade. You know, like what does 
an electrician look like? What kind of tools do they have? 
Where do they work? Just so that when they get into the middle 
school they might have been thinking about that.
    You know, when you talk to a young schooler, most of the 
time they say I want to be a teacher. I want to be a doctor. I 
want to be a vet. I mean, those are the things that they see on 
TV. But educating them maybe even in the grade schools about 
other opportunities, especially the ones that we know are going 
to be in such high demand coming up.
    Chairman KNIGHT. And I am going to go on to Ms. Murphy.
    I agree. I think that you are seeing a transition right 
now, especially when we talk about STEM. If you thought that 
there was going to be a female aeronautical engineer 40 years 
ago, you would have had to search this country for one. Today, 
we understand there is a huge push in the last 10 years in 
college, but we have a lot of that kind of push to get people 
to understand you can do this. These are the opportunities. The 
same thing with males in nursing. Forty years ago you probably 
would have had to search the country. Today males know nursing 
is an opportunity.
    So it is kind of a change, and I think the earlier we can 
get to kids and we can say, look, you absolutely can do 
anything. I am glad you did not say politician in what they 
were looking to be when they grew up. But they absolutely can 
be anything. Sometimes it is not that they do not believe that 
they can; it is that they do not know that that opportunity is 
there. So, okay.
    Ms. Murphy, I have taken plenty.
    Ms. MURPHY. Thank you, Mr. Chairman.
    Ms. Simmons, I found the conversation really interesting 
because I think what you are pointing out is that there is a 
social bias against technical careers and apprenticeships and I 
am interested in hearing some of the other witnesses' 
suggestions on how we break down some of those social biases 
that are maybe preventing the number of students going into 
some of these skills.
    One of the interesting things is I have spent a bit of time 
in my community going to see apprenticeship programs, and 
certainly, the skillset required for a car mechanic, for 
example, is no longer the grease monkey kind of thing. It is 
can you work a computer? Do you know how to program? Some of 
the things that Mr. Mazur talked about.
    And so I would be curious if the witnesses, other witnesses 
had any thoughts on how to address that, the pipeline, the 
demand for some of these programs.
    Mr. FORREST. Well, one of the things that we are doing in 
California is we have launched a campaign in which we have 
taken CTE, career technical education, and we have rebranded it 
and called it career education. And we have launched it into 
the movie theaters in which we show young people in 
apprenticeships, working in careers such as automotive 
technology, and then it is a part of the preview of the movie, 
kind of a commercial, trying to really help change the culture 
and dynamic and narrative of career education.
    Another thing that we do is we host a manufacturing day. We 
actually go out to all of the junior high schools in our region 
and we bring the kids to our campus for a full day of 
understanding what the manufacturing and STEM fields hold for 
them, and we bring in companies that come in and speak to them. 
There are company tours. We also bring in a gentleman who is 
probably one of the most greatest icons in advanced 
manufacturing, Titan Gilroy. He comes in and speaks to the 
young people as well, and we generally bring between 300-400 
individuals along with their parents. And so that is happening.
    But I will say again, I agree with you, Ranking Member 
Murphy, that one of the greatest challenges is changing the 
perception of career education in the minds of both the parents 
and in the minds of the high school and junior high educational 
institutions because the message has to come from them in order 
for it to really have that long lasting impact because they are 
the ones that are going to be with those students in those very 
formative years. And so that would be the critical component, 
is getting our educational institutions to realize that our 
high school and junior high schools, that this is a very, very 
positive alternative for their students, and that not everyone 
was meant to go to a 4-year college or university and that it 
is not a negative thing if they choose a career in a machine 
shop. Whereas, where I started my career at what was McDonnell 
Douglas. And so certainly, that is the thing; we have to change 
the messaging and the perception.
    Ms. KUNZ. If I could add a few things to that. And Ranking 
Member Murphy, you mentioned kind of even getting more 
minorities and women involved in manufacturing in these career 
paths. A couple things that SME is doing I will say on the 
front of--if you have heard of 3D printing, additive 
manufacturing, we do quite a bit I mentioned as an organization 
to help manufacturing. We not only develop the workforce, but 
we try to move technology forward. And we recently launched a 
new apprenticeship program around 3D printing in collaboration 
with the Robert C. Byrd Institute, as well as America Makes, 
one of the Manufacturing USA Institutes. And I bring that up 
because that is an example where sometimes we think of the 
traditional, and I think we have covered that pretty well--the 
welders, the machinists, the maintenance technicians, which is 
all really important, but we also have these new jobs that are 
entering the field which will help us change the image and the 
perceptions of manufacturing around high-tech, high-touch, 
high-challenging jobs that when we have done some workshops 
with young men and women we see the women really gravitate to 
3D printing, kind of this more design, creative, art side of 
it. And so I think there are things like that, too, that are a 
little bit maybe nontraditional, new technologies that will 
also help shape the perceptions.
    Another initiative is also the career counselors. I sit on 
a National Coalition of Career Counselors, a coalition 
regarding career counseling, which is really trying to get at 
the fact that there is not enough funding related to career 
counselors, the number of career counselors, the ratio to the 
number of students, and that they are really not able to do 
career counseling. They are a lot of times dealing with other 
issues--unrelated behavior, whatever it might be. So that is 
also impacting I think what is being told to the students. So 
not only the parents, what is happening in the media, but also 
the career counselors.
    And lastly, I would be remiss if I did not say that I think 
one of the challenges is what is happening actually in the 
schools. There are some schools that have tremendous programs 
that when you go into the school, so now let's say we get these 
kids to think I want to go pursue a career in something 
technical. But if they walk into that school and the equipment 
is 30 years old, the curriculum is old, I am not faulting the 
school. I am saying the funding side. So we are challenged 
there, too. So when the students enter a program that is robust 
and meeting the needs of the manufacturing community today, we 
are in good shape. When we do not, we kind of fall short. 
Right? We got them in the pipeline and now all of a sudden they 
come in and now it is a validation of maybe what they were told 
before. And so we have to do things there. And our education 
foundation does quite a bit to work with local employers who 
really look at the education system as part of their supply 
chain, one of their critical suppliers of people. And those 
employers that decide to actually put their money forward, 
donate it to our education foundation, we go and we work with 
the administrators, with the community, and with the school 
hand in hand to look and audit their program. To look at their 
curriculum. To look at their career consoling. To look if they 
have a middle school camp that feeds into the high school. And 
look at the technology. All of the things. And basically then 
take that money from those corporate donors and make sure it 
goes towards the kinds of things that builds up the program in 
those high schools or those career education programs. Thank 
you.
    Ms. MURPHY. Thank you. I see that my time has expired.
    Mr. MAZUR. I would weigh in just briefly on that same 
question. What we face in the tech and software development 
space is sort of different cultural perception gap, and that is 
this idea oftentimes people have that people have to be born to 
code. That there is some, you know, 5 percent of the people out 
there who have the special coding gene and it is only those 
people who are going to be software developers. And when, in 
fact, that is not true. And so we try to be very clear with 
people that this is an opportunity that anyone who has certain 
foundational skills can take advantage of. Do you have 10th 
grade math skills? Do you have basic proficiency and logical 
reasoning and problem solving? Do you have basic digital 
literacy? If you have that foundation then, you know, really 
almost anyone can build the other pieces that will allow them 
to move on down the road towards a career as a software 
developer.
    And so, you know, in our program, in our experience, in a 
world and a realm where if you look at software developers and 
the demographic makeup of those groups, you know, it is by and 
large still today white men, oftentimes young. We have been 
able to build programs. We have a Coder Girl program. We have 
other programs that are designed to really help people see 
other people who have gone through this experience. I have 
shared story with those folks, and so we have seen our 
education programs, for instance, in 2017, get to a point where 
even though, you know, probably 17 percent of the software 
developers in the U.S. working today are women, 47 percent of 
the people who are enrolled in our programs are women. People 
of color, again, very underrepresented in the field. About 38 
percent of the people who took part in our training and 
education programs in 2017 were people of color.
    So if you can understand, people, what the real challenge 
is and what the opportunities are there, then I think you can 
start to break down some of these other kind of cultural 
concerns and barriers that keep people out.
    Ms. MURPHY. Great. Thank you so much.
    I yield back.
    Chairman KNIGHT. Chairman?
    Mr. CHABOT. Thank you very much, Mr. Chairman.
    Just a couple questions. I think I would start out with 
this one.
    Could you discuss any resistance that you still see perhaps 
in some parents because they do not want their kids necessarily 
to have a job where they are going to get their hands dirty or 
maybe be in the skills trades or--and I see a lot of heads 
nodding. So I will start down this end. What can we do about 
that? Is it an education process? You know, is it kind of like 
realistically understanding what is in this economy and where 
the jobs are or just what would you suggest?
    Ms. SIMMONS. So most of the parents have a view of some of 
the jobs that the students could go into in an apprenticeship, 
the old model. You know, dirt floors, low lighting, and that is 
not what advanced manufacturing in some of these apprentice 
programs look like today. So we require any student that is 
interested to bring a parent or guardian in for a tour to one 
of the companies that is offering the apprenticeship so that 
they can see. And a lot of times the students go home excited 
and saying about this opportunity, they are going to pay for my 
education. They are going to pay for me to be in school. And 
the parents are like, it is too good to be true. One thing you 
learn in life is if it sounds too good to be true, it is. But 
once they come in and they see that every piece of equipment we 
have has a computer on it and you could eat off our floors, 
then they want to know how they can get into a career in this 
and they want the opportunity.
    And one other thing is going back to the CDCs in the 
school. Jackie Smith is an apprentice of ours, and right before 
he turned 16, him and his dad bought a car to work on so when 
he could drive. And he realized that that first time that he 
loved working with his hands. And he was good at it. He had 
never been able to take any CTE classes in his high school 
because he had a 4.4 GPA. He was smart. He was on the track to 
go to college. And his career counselors said no. You need to 
be in all these AP courses. He fought his junior year after 
working on the car with his dad to get into an automotive 
class. And at that school he had the opportunity--he never even 
would have had the opportunity to hear about our apprenticeship 
program. He had the opportunity to hear about it. He brought 
his mom and he brought his dad in. And they agreed. And he 
says, you know, if I would have been in college now, I probably 
would have been miserable. I may have dropped out. I would have 
spent a lot of money on it. I am doing something I love and I 
am going to make just as much money had I gone the 4-year 
college route and I am getting it all paid for. He is 19 years 
old. He has a 401(k). He has full benefits, and he is enjoying 
what he does every single day.
    So it is a message to the parents and to these educators 
that these opportunities are great for them.
    Mr. CHABOT. Thank you very much.
    Mr. Forrest, I saw you nodding there, too. So if you 
would----
    Mr. FORREST. Sure. The key is always getting the message 
over to the parents. And one of the ways in which we do that, 
even at the community college and in some high schools, is 
through the creation of a makerspace at those particular 
facilities. And the makerspace provides an environment in which 
these young people are able to go in and explore these careers 
that involve hands-on training. We have a makerspace at College 
of the Canyons, and some of our high schools have makerspaces 
as well. And so that creates an excellent environment for the 
children and their parents to get to see what it is like to be 
in this type of career field firsthand. And so I really 
recommend that most of our educational institutions, especially 
at the high school and the junior high level, consider a 
makerspace relationship, either with one that exists as a 
private-public relationship or try to integrate one into their 
own educational setting. The other is that we do whatever we 
can to make sure that we provide opportunities for these young 
people to be able to build within their own pursuits of their 
own careers the opportunity to do something that is related to 
making something that is part of their curriculum. It has to be 
integrated in there at some point. And once that happens, even 
if they are not good with their hands as some people like to 
say, still giving them that access and that exposure I think is 
critical to getting them involved and excited.
    Mr. CHABOT. Thank you very much.
    Do the other witnesses want to weigh in?
    Yes, sir?
    Mr. MAZUR. Can I say just a few words? We serve probably a 
slightly different age range than other folks at the table 
serve. The preponderance of people we served over time are in 
the 24-to-40 year old age range. And so we have a nontrivial 
number of people who have gone, they have a 4-year degree, and 
they got a degree in English or History or Literature and in 
the couple years since they have been working 18 hours a week 
at the FedEx, Kinkos, or doing other things, never having had 
the opportunity to have that educational experience kind of 
launch them into a career that they found fulfilling. And so 
they find us then and they build a new skill and we place them 
into a career in tech and they go off on their way.
    I think that experience and the experience of those people 
may resonate with the parents of someone who is sort of 
insistent that someone go down the path of a 4-year degree, 
that there are plenty of examples of people who go down that 
path and have a great experience and it is the right thing to 
do; there are plenty of others who do that and it is not the 
dream they thought it was and so that may be an instructive 
lesson for parents and young people out there making this 
choice.
    Mr. CHABOT. Thank you very much.
    Mr. Chairman, my time is about to expire, so I will yield 
back.
    Chairman KNIGHT. Thank you, Chairman.
    I just have two final questions. One was about schools, and 
I know Ms. Kunz said, you know, if you walk into a classroom 
and it has got 30-year-old stuff, it is tougher for the kids to 
get involved. I know I went into a school recently and a 
company had given a lot of this stuff that they had been 
working on and the kids were very, very involved. They were 
very happy. They knew that they were working on equipment that 
was of this generation and they were excited about that.
    But I have also been in classrooms that you have got the 
30-year-old microscope or something and it is a paperweight 
right now. So I do think the connections to the businesses, if 
you are working with a business and you are saying, hey, we are 
going to be your pipeline, you have got to help us, I agree 
that government should be very involved in this, but the 
businesses should be very involved. If we are going to give you 
what your most vital aspect is, and that is skilled labor, then 
you have got to help us get them skilled.
    Ms. KUNZ. Absolutely. I think we certainly are very big 
advocates for the fact that the corporate industry--and we get 
the opportunity to work with a lot of companies which is great, 
but we do make the message very clear that your number one 
asset is human capital. Every company can go buy the same C&C 
machine. Everyone can buy the same materials. A lot of those 
companies have access to the same kinds of technology. What 
makes an organization unique is the people behind the 
technology. It is the people programming and the people 
planning and the people designing, the people maintaining the 
equipment. And so here it is, this number one, you know, kind 
of asset and competitive advantage for an organization, but all 
too often, it is normal, a manufacturer is thinking about 
supply chain of its components. Where it is coming in, the 
quality of the parts, and sometimes the human capital side is 
not thought of. So it certainly is a message we carry forward 
that we all have a role and the corporate industry certainly 
has to look, just like it would if they had a supplier who was 
delivering components that did not have the right quality or 
met the right specifications, right, to build the plane or to 
build the car, whatever it might be. If the students are coming 
out with not the right specifications to meet the needs, you 
have got to go work with your supplier. And that is an 
important part and aspect of the community involvement and it 
is an important part of the development of their own 
organization strategy going forward. So we really encourage 
that organizations build that into their strategic business 
plan is their human capital strategy and how they can work with 
schools I think is a very critical way of doing that.
    Chairman KNIGHT. And Mr. Mazur, you said something, you 
know, and I think Mr. Forrest will say the same thing. A lot of 
these people are not 18 years old. A lot of these folks are 30, 
35. If you go to a community college today you do find your 18-
year-olds, but you do find a lot of people that look like me, 
and they are looking to get a new skill or transition or their 
job was let go and now they need a skill. Those are very, very 
important aspects, and that is what happens at what you are 
doing. That is what happens at what apprenticeship programs are 
doing or community colleges. So, but you hit on one issue--we 
are voting--coding.
    So when I was a senator in California, I went to a small 
company, Microsoft, and asked them about what they needed for 
jobs. And they had a program called TEALS. And it was basically 
to put computer science into high schools that did not have 
computer science. We actually brought that into our district. 
It is in five high schools right now and that gives kind of a 
pipeline into kids going into college or into apprenticeship. 
And then I talked to them about getting coders. And I said, you 
know, at a community college we can get you a coder, probably 
an 18-month certification, maybe less. We can get you coders.
    Now, some companies in America want a 4-year degree. I get 
that. But I do not get the fact that if you have got 6,000 job 
openings and I can get you them in 12 months or 18 months, why 
would you not take them? So I think that that is where you are 
going is, you know, if you have got the aptitude and we can 
teach you, is that where we are going with what you do with 
coding?
    Mr. MAZUR. Absolutely. And I think it ties into your 
previous question, too, about sort of the notion of the 
responsibility of companies and employers to kind of own that 
process and support it and be advocates for apprenticeship. You 
know, we have placed hundreds of people in apprenticeship. We 
have a registered apprenticeship. We have never received a 
single we owe a dollar in support of our registered apprentice 
programs. We try to build and design a product and an 
opportunity that employers want to pay for. And so our 
apprenticeship, our processes and our program that we have 
built for apprenticeship is all driven by essentially success 
fees, placement fees that our employer-partners give to us for 
providing them someone who has the skill to do what they need 
to do.
    And so, you know, building that product, building that 
opportunity that scratches the itch that employers have, which 
is how do I build a sustainable and continuous pool that is 
growing of junior talent that is going to sustain me as this 
need continues to grow over time, and at the same time, how do 
I create that pipeline in a way that gives employers an 
incentive to actually fund it and make sure that it goes? And 
so, you know, we have not perfect that but that is what we are 
trying to do.
    I was talking with Mr. Forrest beforehand. You know, last 
year in 2017, we are nonprofit so we raise money and we get 
grants and other stuff. In 2017, 54 percent of our total budget 
came from our own revenue stream from employers, and we expect 
that in 2018, that is going to be between 70 and 74 percent. 
So, you know, we are trying to continue on down the road of 
building something that truly has a market niche that employers 
want to touch and grab and that that will help make more people 
successful. It will help make us successful as an organization, 
and it will help fill this growing gap. So, a lot of those 
pieces touch one another. I think it is important we think 
about all of them.
    Chairman KNIGHT. Well, thank you all for coming. We 
appreciate your testimony today.
    Registered Apprenticeship has experienced a resurgence in 
popularity among policymakers on both sides of the aisle. We 
look forward to the findings of the Task Force on 
Apprenticeship Expansion, and we will be eager to hear small 
business participate in RA programs.
    I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting material for the 
record.
    Without objection, so ordered.
    This hearing is adjourned.
    [Whereupon, at 3:27 p.m., the Subcommittee was adjourned.]
    
    
    
    
                            A P P E N D I X

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  SME


                      MAKING THE FUTURE. TOGETHER.

                       Written Testimony

                  Committee on Small Business

           Subcommittee on Contracting and Workforce

       ``How Small Manufacturing Companies Are Utilizing 
            Apprenticeship to Fill the Skills Gap''

             United States House of Representatives

                        Washington, D.C.

                   Delivered by Jeannine Kunz

                Vice President of Tooling U-SME

                   (training division of SME)

                         March 20, 2018

    Thank you, Chairman Knight and Ranking Member Murphy, for 
the opportunity to provide some insight into why and how small 
manufacturing companies are utilizing apprenticeship to fill 
the skills gap. I am representing SME and its training and 
development division, Tooling U-SME. For 85 years, SME has 
dedicated itself to ensuring the health and competitiveness of 
the manufacturing industry by developing the workforce and 
promoting advanced technologies. For the past decade and into 
the foreseeable future, the skills gap threatens the progress 
of this important sector in our country. According to the 2015 
census, small businesses represent 89 percent of manufacturing 
establishments in the United States, and most don't have the 
resources capable or dedicated to building strong structured 
workforce programs from the ground up. These businesses, 
employing 44 percent of the manufacturing workforce, are often 
experiencing extreme challenges to the operation and growth of 
their organizations, which ultimately threatens our economic 
progress as an industry and nation.

    In response, we have worked with manufacturers, educators 
and workforce organizations throughout the country to build 
training programs that support workforce learning initiatives 
and offer a national perspective with localized solutions. 
Hundreds of thousands of individuals from more than 5,000 
companies and 600 educational facilities partner with us to 
strengthen the knowledge and skills of today and tomorrow's 
manufacturing workforce. Now more than ever, manufacturing is 
in critical need of help to combat challenges facing the 
industry at unprecedented levels.

    As many already know, the skills gap is widening due to 
several factors colliding at once. The retirement of millions 
of experienced and knowledgeable workers is creating a 
worrisome vacuum. Other factors, such as the introduction of 
new technologies and misperceptions about the image of 
manufacturing, contribute to a shortage of workers entering the 
field. In fact, over the next decade, nearly 3.5 million 
manufacturing jobs will likely need to be filled. Because of 
the skills gap, 2 million of those jobs are expected to remain 
unfilled.

    Yet, the industry is not prepared. Tooling U-SME's 
Workforce 2021 Assessment, a five-year study, reveals companies 
are falling dangerously behind when it comes to addressing the 
manufacturing skills gap. Nearly nine out of 10, or 88 percent, 
say that their company is having problems finding skilled 
workers in manufacturing. And small companies, on average, are 
more challenged to find skilled workers than larger companies, 
as they have additional disadvantages when it comes to factors 
such as health and benefit plans. Small businesses often cite 
the challenge of hiring and training an employee, only to have 
the larger company down the street recruit that employee away.

    Since the workforce and skills gap challenge runs deep, 
there is not a one-size-fits-all solution for small businesses. 
Rather, they need an arsenal of several accessible, interwoven 
options, so they can address various needs as they arise and 
evolve.

    There is no doubt that the small-business arsenal should 
include apprenticeship, a positive solution with a measurable 
return on investment. Small businesses in manufacturing are 
known for informal, tribal knowledge-driven approaches that do 
not validate the transfer of skills to new workers. This puts 
their organizations at significant risk, especially with the 
retirement of baby boomers. Manufacturers must have formalized 
programs in place for onboarding and on-the-job training, such 
as formal competency-based apprenticeship programs.

    As manufacturers struggle to find qualified workers, they 
are tapping into an age-old training approach with a modern 
twist. Around for generations, apprenticeships--which allow 
employees to earn while they learn--are seeing a renaissance as 
the industry addresses the skills gap. By establishing 
apprenticeship programs around industry-wide standards, U.S. 
employers who sponsor such programs can more quickly build a 
pipeline of skilled workers, boost retention, reduce recruiting 
costs and improve productivity.

    We believe that training and professional development is 
the key to the future success of manufacturing. Additionally, 
we believe that forward-thinking technical schools and 
community colleges are our critical partners in this effort. 
Manufacturers are the keepers of vital knowledge and 
technologies, but this knowledge will be lost through 
transition and a retiring workforce unless it is passed on. We 
have developed an extensive, diverse catalog of manufacturing-
specific content and innovative learning tools to help 
manufacturers bolster their expertise and leverage their people 
to successfully compete in today's economy.

    SME supports nationwide Department of Labor apprenticeship 
programs with a competency-based approach to traditional 
apprenticeship models. In the past, apprenticeships have 
involved completing Related Training Instruction and On-The-Job 
Training hours to attain journey worker and journey-level 
status. However, today's apprenticeships differ from earlier 
iterations. Informal, time-based programs are being replaced by 
formal, competency-based programs. SME believes that 
competency-based learning and development programs are 
essential to successful learning of specific job roles. Our 
Apprenticeship Acceleration Framework examines the necessary 
knowledge and skills that support common apprenticeship job 
functions. This is especially important for small businesses, 
as they typically don't have a Human Resources Department or 
Learning Officers to create these programs from scratch. 
Instead, they must rely on government and associations to 
provide a framework, standard or structure to work within.

    Through our partnerships, SME has seen how well the 
apprenticeship model has worked for small businesses. For 
example, the Manufacturers Association of Central New York, 
known as MACNY, represents more than 300 manufacturers and 
business organizations across Central and Upstate New York. 
These small- to mid-sized companies have the same challenge as 
bigger companies--a rapidly retiring workforce. But unlike 
bigger companies, they don't have the resources, time and money 
to start their own training program and address their workforce 
needs.

    MACNY is part of a bigger organization called the 
Manufacturers Alliance of New York State, which brings smaller 
associations together for statewide economy of scale on issues 
such as working with the government, taxation, workers' 
compensation, understanding new processes and grant funding. 
Martha Ponge, Director of Apprenticeships for MACNY, said, ``As 
a group, we realized that not only did we need to raise up the 
middle skills for manufacturing, but that entry-level positions 
were in jeopardy. Collaborating to solve the problem gave us 
positive results and a pathway for expanding our growth.''

    MACNY partnered with Tooling U-SME to define the standards 
of apprenticeship for its program, and to deploy training and 
measurement tools to both develop and assess apprentices. 
Tooling U-SME facilitated multiple workshops with MACNY 
stakeholders and representative employers to finalize the 
knowledge and skill requirements of each occupation.

    MACNY is also collaborating with Working Solutions New 
York, a Workforce Investment Board that serves as a connector 
between the U.S. Department of Labor and American Job Centers. 
Working Solutions was awarded American Apprenticeship 
Initiative grants, and turned to MACNY to provide the Tooling 
U-SME competency-based outline for apprenticeships in seven 
occupations. In addition, Tooling U-SME was asked to design a 
pre-apprenticeship program so Working Solutions could provide 
companies that were not quite ready for a full apprenticeship 
with an alternative to begin their workforce education and fill 
their pipelines. This program is focusing on high school 
students, dislocated workers and veterans. MACNY is in 
discussions with leadership to take that pre-apprenticeship 
program and implement it in the Syracuse Public School system 
in 2018.

    Another superb example of how apprenticeship can positively 
affect small business is Cox Manufacturing in San Antonio, 
Texas. For more than 60 years, Cox has been a maker of 
precision cut metal components. Since 2010, Cox has grown from 
70 employees to 140 employees. Sean Althaus, training 
coordinator for Cox, said,

          ``It's difficult to grow in manufacturing without the 
        right people in place. Companies need to have 
        apprenticeship programs in place for the long run. I've 
        been able to see, firsthand, the apprenticeship program 
        grow to a state-of-the-art model that can compete with 
        other businesses and programs across the country. The 
        biggest advantage for a company is related to culture 
        and retention. Turnover has been on a downward trend 
        the last two years. It's an investment in the future.''

    Sean went on to say that apprenticeships are a risk-free, 
debt-free way for people to gain skills and education. 
Apprentices get paid by their companies to perform normal 
duties and earn while they learn. The key component is that 
they come out with Department of Labor credentials, which are 
objective third-party credentials recognized at any facility.

    Cox and other small companies are having a lot of success 
pursuing an apprenticeship strategy that helps build an 
appealing culture and the talent pipeline. There are cost 
savings, too. According to the 2014 Accenture Manufacturing 
Skills and Training Study, the average manufacturer can lose 11 
percent of annual earnings due to the skills shortage.

    One last example of how small businesses are using 
apprenticeship to fill the skills gap is the Westside 
Industrial Retention & Expansion Network, also known as WIRE-
Net, based in Cleveland, WIRE-Net, a nonprofit economic 
development organization, has been supporting local 
manufacturers since the late '80s. The organization had heard 
from many manufacturers who were ready to invest in 
apprenticeship programs in order to grow their talent base, but 
did not have the time and expertise to implement them.

    To address this, WIRE-Net created an apprenticeship program 
for a consortium of smaller companies, called the Northeast 
Ohio Manufacturing Apprenticeship Consortium. With this plug-
and-play approach, local manufacturers rely on WIRE-Net to 
handle the administration and logistics of establishing an 
apprenticeship program, removing a major barrier to 
implementation. WIRE-Net also negotiates with educational 
providers on behalf of the consortium, and provides expert, 
structured, on-the-job training for the apprentice mentors at 
each company.

    The consortium approach translates into buying power. It 
also helps persuade trainers to be responsive to the needs of 
consortium members, especially in terms of scheduling technical 
course work. This ensures apprentices meet standard credentials 
such as those of the National Institute of Metalworking Skills. 
WIRE-Net also identifies sources of training dollars to keep 
training costs affordable for small- and medium-sized 
manufacturers, working with both local and national partners.

    In summary, the health of small businesses is vital to 
manufacturing's success. The largest OEMs in the world rely on 
the supply chain of small businesses. All too often, we are 
hearing of small businesses turning down orders or delaying 
expansion because they don't have the right talent in place. 
Apprenticeships are a proven and needed piece of a company's 
workforce strategy to combat the skills gap. They help small 
businesses build a pipeline of skilled workers, grow internal 
talent, retain employees, reduce recruiting costs and improve 
productivity. Undoubtedly, support of small businesses needs to 
be at the forefront of our conversations about strong economic 
and workforce development. We thank the Subcommittee on 
Contracting and Workforce for taking the time and care to 
better understand the role apprenticeship plays, and to stress 
its importance as part of a strategic and multi-pronged attack 
on the skills gap.

    Thank you.


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
    Chairman Knight, Ranking Member Murphy, and distinguished 
Members of the Committee:

    On behalf of the Iowa Brewers Guild, I'd like to express my 
appreciation for the opportunity to share our experience 
working with the Registered Apprenticeship system to establish 
our program.

    The Iowa Brewers Guild is the trade organization for the 
growing craft brewing industry in Iowa, and along with 
promoting and protecting Iowa beer, one of our primary goals is 
to improve the quality of beer brewed in the Hawkeye State. To 
that end, we offer workshops and an annual technical conference 
to our members and the general public.

    A few years ago, we watched as brewery after brewery opened 
and expanded across the state, and we became concerned about 
the skillsets necessary for continued success. On the surface, 
brewing beer seems a fun occupation--and it is. But it is also 
dangerous work that requires scientific precision for success. 
If our breweries were to compete in the broader beer scene, we 
would need to take steps to have well-trained brewers available 
in our state.

    Enter the Registered Apprenticeship Program.

    We were surprised to learn that no apprenticeship standards 
existed for a professional brewer. As there are very few 
brewing schools or training programs across the world (and none 
in Iowa), our Board of Directors elected to pursue an 
apprenticeship program of our own. Along with members of our 
Education Committee, I researched the process and appropriate 
criteria, and engaged the Office of Apprenticeship in Des 
Moines.

    Everyone I encountered in the process was helpful and 
supportive as we worked to construct our Standards of 
Apprenticeship, and we were pleased to learn that our plan was 
approved by the Department of Labor a few months later.

    Due to the small size of our Iowa breweries, we've known 
all along that we would run very few apprentices through our 
program. (At present, we have only one apprentice in the 
program at Firetrucker Brewery in Ankeny--the experience is 
going well for all parties.) However, there is much interest 
from those looking to become professional brewers, and I have 
many applications on file (from Iowans, out-of-staters, and as 
far away as Brazil) ready for a position to open up. Beyond 
potential apprentices, I've received queries from colleges, 
brewers guilds, and Workforce Development offices from other 
states looking into the idea of creating a program of their 
own.

    Iowa has long been known for having a strong educational 
system, and so regardless of how many apprentices our breweries 
are able to engage in the coming years, we feel great 
satisfaction in knowing that the Iowa Brewers Guild forged a 
path to make Professional Brewer a Department of Labor-approved 
apprenticeable occupation. We are hopeful that other businesses 
or organizations will take our framework and apply it to 
training programs in their own states and communities.

    We believe the apprenticeship process is a respectable 
means to job training and a valuable credential for job seekers 
to carry, especially in an occupation such as ours. We are 
proud of our part in designing a program from which others 
around the country may also benefit, and I am pleased to report 
that our experience with both the Office of Apprenticeship in 
Des Moines and the Department of Labor in Washington, DC has 
been positive and professionally rewarding.

    Sincerely,

    J. Wilson

    Minister of Iowa Beer

    Iowa Brewers Guild
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]



</pre></body></html>
